CERTIFICATE OF SERVICE

I, do hereby certify that the above true and correct resubmission of her December 27, 2020,
Petition for Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit, was
provided to the Clerk of the Court. I further certify that one true copy of said document was
severed upon counsel for the United States at the following addresses:
Merrick B. Garland
Attorney General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

Marion Percell
Chief Of Appeals
Room 6-100
PJKK Federal Building
300 Ala Moana Blvd.
Honolulu, Hawaii 96850
All copies deposited, postage prepaid and placed into the U.S. mail service on this,
of April, 2021.

i

day

MALIA ARCIERO
Pro se Petitioner
Fed Reg No. 16101-022
FCI Victorville Medium II
Federal Correctional Institution
Satellite Camp
P.O. Box 5300
Adelanto, GA 92301

1

